No. 20-538

 

IN THE

Supreme Court of the United States

RENTBERRY, INC., AND DELANEY WYSINGLE,

Petitioners,
v.

THE CITY OF SEATTLE,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF FOR THE NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC. AS AMICUS CURIAE
SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,735 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 23, 2020.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
